OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/HAITI’S
IMPROVED COOKING
TECHNOLOGY PROGRAM
AUDIT REPORT NO. 1-521-14-005-P
MARCH 3, 2014




SAN SALVADOR, EL SALVADOR
Office of Inspector General


March 3, 2014

MEMORANDUM

TO:       	          USAID/Haiti Mission Director, John Groarke

FROM: 	              Regional Inspector General/San Salvador, Jon Chasson /s/

SUBJECT:	            Audit of USAID/Haiti’s Improved Cooking Technology Program
                     (Report Number 1-521-14-005-P)

This memorandum transmits our final report on the subject audit for your review and comment.
This report contains 15 recommendations to improve USAID/Haiti’s implementation of the
Improved Cooking Technology Program. We have considered your comments on the draft
report and included them in Appendix II.

Based on our evaluation of management comments, we acknowledge that the mission has
made management decisions on all recommendations.

We determined that the mission has taken final action on Recommendations 3 and 4. Please
coordinate final action for the remaining recommendations with the Office of Audit Performance
and Compliance Division.

I want to thank you and your staff for the cooperation and assistance extended to us during this
audit.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
http://oig.usaid.gov
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 5 


     Delayed Carbon Financing Results Put Program’s Success and Financial 

     Sustainability at Risk ............................................................................................................... 5 


     Some Program Activities Were Not as Successful as Planned .............................................. 7 


     Chemonics Did Not Meet Targets to Reduce Charcoal Consumption .................................... 9 


     USAID/Haiti Did Not Follow All Environmental Procedures .................................................. 11 


     Not All Program Data Met Criteria......................................................................................... 12 


Evaluation of Management Comments................................................................................... 16 


Appendix I—Scope and Methodology .................................................................................... 19 


Appendix II—Management Comments ................................................................................... 21 





Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
BME             Bureau of Mines and Energy
COR             contracting officer’s representative
EMPR            environmental mitigation plan and report
IEE             initial environmental examination
LPG             liquefied petroleum gas
MEO             mission environmental officer
PMP             performance management plan
SUMMARY OF RESULTS 

About 90 percent of Haitians meet their daily household energy needs with open fires or stoves
that burn charcoal or wood. Charcoal production causes severe environmental degradation in a
country where forests cover only 2.6 percent of the land.1 Deforestation has caused erosion and
destroyed natural watersheds, leaving Haiti vulnerable to landslides and flash floods.

In addition to damaging the environment, relying on unclean fuels causes health problems. Daily
exposure to smoke from traditional cooking practices results in a range of acute, chronic, and
deadly health problems, especially respiratory illnesses. According to USAID, exposure to
indoor air pollution leads to nearly 3,000 premature deaths in Haiti per year.

To address these problems, on January 31, 2012, USAID/Haiti signed a 3-year cost-plus-fixed-
fee completion contract worth $8.2 million with Chemonics International Inc. to implement the
Improved Cooking Technology Program. As of April 30, 2013, cumulative obligations and
disbursements totaled $8.2 million and $2.7 million, respectively.

The program’s goal was to reduce coal consumption in Haiti by establishing a thriving,
sustainable, and affordable market for clean cooking solutions. The program sought to:

	 Promote the use of more efficient biomass cookstoves in individual households.

	 Expand the use of cleaner, more efficient commercial-grade liquefied petroleum gas (LPG)
   stoves in individual households and businesses such as street vendors, schools, and
   orphanages, which consume large amounts of coal.

	 Strengthen the legal and             regulatory   framework    for   the   safe   distribution   and
   commercialization of LPG.

	 Increase the program’s impact and sustainability through carbon financing, in which a
   developing country sells greenhouse gas emission reductions to industrialized countries,
   thus helping the purchasers meet their obligations for reducing emissions under the Kyoto
   Protocol. Program officials expected that revenue from carbon financing would subsidize the
   cost of cookstoves and provide revenues for future program operations.

The purpose of this audit was to determine whether the program was establishing the near- and
long-term foundations for a sustainable market of clean, efficient, and affordable cooking
solutions in Haiti.




1
    U.S. Department of Agriculture’s Forest Service, Haiti Biodiversity and Tropical Forest Assessment,
    December 2010.


                                                                                                     1
  Charcoal stoves (left) sell for about $2. Costs for the biomass charcoal stoves (right) that USAID/Haiti’s
        program is promoting range from $10 to $50. (Photo by RIG/San Salvador, June 28, 2013)

The audit found that the program has made some progress toward meeting its objectives. For
example, it has:

	 Carried out systematic testing of various biomass stoves and selected four types to support
   and promote through program-funded activities.

	 Developed strong relationships with five biomass stove manufacturers and retailers to
   increase stove supply and price accessibility in several areas of Port-au-Prince.

	 Helped manufacturers establish distribution networks and improve marketing and customer
   service.

	 Trained 37 technicians in LPG stove repair and manufacturing.

	 Supported radio programming to increase local awareness of improved cooking technology.

	 Designed a comprehensive mass communication campaign for biomass and LPG stoves.

Despite these positive steps, the program did not reduce charcoal consumption by large users
and households as significantly as planned. By April 2013, the program projected to reduce
consumption in Port-au-Prince by 63,745 metric tons by having at least 29,600 beneficiaries
with improved energy services. However, it reached only 24 percent of the reduction target
(14,981 metric tons) and reached only 37 percent (10,905) of the anticipated number of
beneficiaries.

The stoves were too expensive for many Haitians because the program has not yet obtained
carbon financing to reduce prices and provide for the program’s long-term financial sustainability
(page 5). Other aspects of the cookstoves’ marketing effort need to be addressed to expand
sales, including establishment of a certifying lab, improved marketing through raffles, and
eliminating an unnecessary training component (page 7).


                                                                                                               2
Sales of LPG stoves also lagged, and the program converted only 337 of the targeted
4,550 large users (street food vendors, orphanages, and schools) from charcoal to LPG. The
program did not have enough targeted financing options and marketing activities to educate
these users on the benefits of using LPG, and LPG industry stakeholders were not involved
enough in expanding the LPG market (page 9).

The audit identified additional issues that should be addressed to help the program meet its
objectives.

	 USAID/Haiti did not implement all environmental requirements (page 11). The mission did
   not approve environmental plans with updated information about risk activities and their
   mitigation measures. In addition, program management staff did not get the requisite
   environmental training.

	 Mission staff did not provide sufficient performance monitoring (page 12). As a result, the
   quality of the data was problematic.

In consideration of our audit findings, we recommend that USAID/Haiti:

1. 	Review time frames for carbon finance implementation to determine whether expected
    results can be achieved during the program and modify the contract to reflect realistic
    achievements or document the reasons for not modifying the contract (page 6).

2. 	Implement a plan to resolve delays in activities that must be completed before carbon
    finance validation and certification can occur (page 6).

3. 	Coordinate with Chemonics to (1) improve communication, coordination, and partnership
    among contractors, subcontractors, and partners in the field, or (2) replace a current
    subimplementer with one that has a greater presence in Haiti and expertise working there
    (page 6).

4. 	 Require Chemonics to prepare a data quality plan for the baseline report, and review and
     approve it (page 7).

5. 	Implement a plan to support the Bureau of Mines and Energy (BME) in developing the
    certification lab or securing alternate partner(s) to house it (page 9).

6. 	Determine whether the charcoal workers’ alternative livelihood activity is adding cost-
    effective value to the program, and document the decision to either continue or terminate
    the activity (page 9).

7. 	 Implement alternative marketing strategies aimed at church groups to expand the biomass
     cookstove market, and expand marketing efforts to other urban community groups and
     document such efforts (page 9).

8. 	 Coordinate with Chemonics to secure more affordable financing options for large consumers
     of charcoal to switch to LPG (page 11).

9. 	Coordiante with Chemonics to strengthen the marketing and outreach plan for large
    consumers of charcoal by using the resources and expertise of LPG distributors (page 11).


                                                                                            3
10. Coordinate with Chemonics to (1) examine the perceived conflict of interest related to the
    LPG legislation, and document conclusions and planned actions, and (2) implement a plan
    to increase collaboration among industry stakeholders through more discussions and forums
    (page 11).

11. Document in writing how USAID/Haiti can achieve targets for the number of	 large
    consumers of charcoal converted to LPG or set realistic targets for the remainder of the
    program (page 11).

12. Implement a policy for mandatory environmental training for all mission staff involved in
    program management and for annually reviewing that all current staff have attended the
    training (page 12).

13. Identify and incorporate risk activities that were not previously part of the approved
    environmental mitigation plan and report, and amend the initial environmental examination
    (IEE) if necessary, and document all actions taken (page 12).

14. Include Chemonics employees in the next environmental training session and document
    their attendance (page 12).

15. In collaboration with Chemonics, (1) update the program’s performance management plan
    (PMP) to include needed revisions to the indicator descriptions, collection method, and
    targets, and (2) implement it to address indicators’ data limitations for evaluating the
    program’s impact (page 15).

Detailed findings follow. Appendix I describes the audit scope and methodology. Our evaluation
of USAID/Haiti’s management comments will appear on page 16, and the mission’s comments
will appear in Appendix ll.




                                                                                            4
AUDIT FINDINGS 

Delayed Carbon Financing Results
Put Program’s Success and Financial
Sustainability at Risk
According to USAID’s Automated Directives System (ADS) 202.3.6, a major task of contracting
officer’s representatives (CORs) and development teams is to monitor the quality and timelines
of a contract’s key outputs. The guidance states, “Delays in completing outputs or problems in
output quality provide an early warning that results may not be achieved as planned,” and that
“early action in response to problems is essential in managing for results.”

USAID/Haiti recognized that the higher cost of the improved stoves compared with traditional
coal stoves was a major impediment to the program’s success. Therefore, the program was
designed to use carbon financing to subsidize the production cost of the improved stoves, which
would allow manufacturers to offer consumers more affordable stoves.

To obtain carbon credits, Chemonics needed to:

	 Develop a complete technical proposal that describes the program’s design and includes a
   baseline report and a monitoring plan.

	 Have the Haitian Government sponsor the proposal.

	 Have an independent technical committee validate the program by assessing the technical
   proposal and comparing it to the requirements established by the Kyoto Protocol. Have the
   United Nations’ certifying group review and register the program under the protocol so
   member nations of the United Nations Framework Convention on Climate Change may
   trade and sell the program’s emission reduction credits and meet the reduction targets these
   nations are bound to.

However, the carbon financing certification process was delayed, which in turn delayed receipt
of the expected funds. While Chemonics reported completing some design documents, other
problems have delayed the program’s final approval.

Lack of Baseline Report. The credit financing baseline report provides important information
about firewood and charcoal consumption rates, stove use trends, and other market data to
determine potential carbon reductions. Chemonics hired an U.S.-based subcontractor to
complete the report by June 2012.

At the time of our audit—June 2013—the report was not finished. Initially it focused on Port-au-
Prince, but USAID expanded the scope in July 2012 to cover the entire country in hopes of
increasing the potential sources of carbon financing. The organization that got the contract,
however, lacked experience in Haiti and monitored the program from the United States, relying
on Chemonics to manage local field partners to ensure the collection of quality data. According
to the subcontractor, communication problems with Chemonics and the field partners’ lack of
expertise led to flaws in the data quality.




                                                                                              5
Haitian Government Did Not Approve Project. To be eligible for the United Nations carbon
financing program, Chemonics needed to have the Haitian Government’s approval. But the
government has not identified the person within the Ministry of Environment who would be
responsible for approving the program.

Shortage of Stove Distributors. To participate, stove distributors must meet eligibility
requirements defined in the design documents. Chemonics has an agreement with an
international stove manufacturer that is interested in selling stoves in Haiti but does not have a
local distributor. While eligible distributors have been identified, as of July 2013 Chemonics did
not have an agreement with any of them. According to the subcontractor tasked with leading the
carbon financing activity, these distributors are interested in a voluntary carbon market that did
not abide by the Kyoto agreement protocols. Local stove manufacturers that Chemonics initially
expected to participate have not shown interest in having their stoves registered by this
program.

Expectations of Carbon Markets Incorrect. USAID/Haiti and Chemonics’ assumptions on the
stability of the carbon credits market proved inaccurate because they estimated sales would
provide a steady revenue stream for the program’s sustainability; even if Chemonics finishes the
proposal for the program’s validation by the United Nations, the program is unlikely to obtain as
much revenue from carbon credit sales as anticipated. Carbon credit prices have decreased
substantially during the past year, threatening the economic viability of any carbon finance
program unless its investors are willing to trade off low returns for the program’s social impact.
Mission officials said they recognized this challenge and decided to hire a technical adviser to
determine whether the program should continue with the certification process.

USAID/Haiti did not respond to any of these problems in a timely manner. The COR said
Chemonics has been working diligently to address them, and she agreed that the mission needs
to provide greater input.

Carbon financing was intended to provide a continuing source of revenue to help stove
manufacturers establish sustainable production and sales of improved stoves at affordable
prices. While the carbon market is declining now, this could change, and the possibility of
investors willing to pay premium prices for assisting development still exists. However, due to
the delays encountered, 3 years might not be enough time for the project to achieve its intended
results. Based on these observations, we make the following recommendations.

   Recommendation 1. We recommend that USAID/Haiti review time frames for carbon
   finance implementation to determine whether expected results can be achieved during
   the program and modify the contract to reflect realistic achievements or document the
   reasons for not modifying the contract.

   Recommendation 2. We recommend that USAID/Haiti implement a plan to resolve
   delays in activities that must be completed before carbon finance validation and
   certification can occur.

   Recommendation 3. We recommend that USAID/Haiti coordinate with Chemonics
   International Inc. to (1) improve communication, coordination, and partnership among
   contractors, subcontractors, and partners in the field, or (2) replace a current
   subimplementer with one that has a greater presence in Haiti and expertise working
   there.



                                                                                                6
   Recommendation 4. We recommend that USAID/Haiti require Chemonics International
   Inc. to prepare a data quality plan for the baseline report, and review and approve it.

Some Program Activities Were Not as
Successful as Planned
According to ADS 202.3.6, a major task of CORs and development teams is to monitor the
quality and timelines of a contract’s key outputs. The guidance states, “Delays in completing
outputs or problems in output quality provide an early warning that results may not be achieved
as planned,” and that “early action in response to problems is essential in managing for results.”

USAID/Haiti’s contract with Chemonics emphasized the importance of establishing a “thriving
local market” for improved biomass cookstoves. Chemonics planned to stimulate demand and
strengthen the production base by addressing needs of stove buyers and manufacturers alike.

While Chemonics has implemented numerous activities to boost the industry and improve
market conditions, certain activities to increase consumer awareness of and confidence in the
stoves have not succeeded.

Stove Certification Process and Lab Set-up Halted. According to Chemonics, testing and
certifying improved cookstoves were critical to the program’s success because consumers could
be certain that the stoves were more efficient and therefore worth more than traditional ones.
The testing also was necessary to support the program’s eligibility for carbon financing. Rather
than resorting to a foreign lab, the program intended to build local capacity by providing
technical training to the Haitian Government to establish a stove certification process that met
international standards and testing protocols.

USAID/Haiti selected BME to house a national testing and certification lab. It would be funded
through fees that stove manufacturers paid for testing and certification. In January 2013 the
program paid to train BME technicians and employees on international testing standards, data
collection, and results analysis and interpretation. The mission also purchased testing
equipment for the lab.

However, the stove certification process stalled in March 2013. A BME representative said they
could not conduct all the necessary tests because nobody knew how to install the testing
equipment. In addition, the technicians did not have enough expertise to meet international
testing standards or to manage the national certification process independently.

Several reasons account for this activity’s slow progress. Chemonics’ subcontractor said not
enough time was allotted and the staff did not have much experience setting up a lab.
Chemonics’ staff also expressed concern that the lab may not be a priority with BME because of
other projects it was working on.

Raffles Had Mixed Results. As part of the efforts to raise awareness for the improved
cookstoves, Chemonics gave several away at 32 raffles held within church communities and
7 in camps for internally displaced people. The goal was to create links between the
communities and manufacturers, thus increasing access and exposure.

However, the raffles have not generated additional sales so far. According to Chemonics, the
raffle winners were the only people out of 800 participants who got improved stoves; raffle



                                                                                                7
organizers confirmed that they did not know of any members of their community who purchased
an improved stove. Although the program had more success with raffles held at the camps, it
continued to focus primarily on raffles held at churches and did not conduct any in other social
networks, such as parent-teacher associations, as planned.

Chemonics officials said they did not know how to sell stoves to low-income population, so they
plan to bring in an expert to help. The focus on churches has been problematic, too, because,
according to program officials, some view the raffles as a form of gambling and refuse to
participate.

Alternate Livelihoods Activities Did Not Support Program Goals. USAID/Haiti anticipated
that sales of improved cookstoves would eventually result in less demand for charcoal, which in
turn would threaten the livelihood of Haiti’s charcoal workers. Therefore, as stated by the
contract, part of the program sought to help charcoal sellers diversify their businesses and
increase their incomes by becoming vendors of improved stoves.

However, the demand for charcoal has not decreased as expected because, according to
Chemonics, it would take at least 4 to 5 years for program efforts to affect stove sales
significantly. Program officials said there has been no noticeable charcoal worker displacement.




                         Charcoal retailers or detallions in Port-au-Prince sell 

                            the fuel near sites where distributors drop off 

                                   charcoal produced in rural Haiti. 

                             (Photo by RIG/San Salvador, June 18, 2013)


In addition, the activities funded generally supplemented the income from the charcoal sales
instead of creating alternative livelihoods. The program tried to get charcoal workers interested
in selling improved stoves, but found that they had little motivation to do so because they could
make more money selling charcoal and they had invested significantly in building relationships
along the charcoal supply chain.

Therefore, Chemonics opted to create community savings clubs in which members contribute
money that could be lent to other members to fund an economically viable activity; Chemonics’
subcontractor had used these successfully in other countries.

Since there has been no significant disruption of charcoal markets in Haiti and charcoal workers
have not been put out of work, training them for alternative employment is not required.
Furthermore, Chemonics staff expected that as charcoal demand decreases, the charcoal


                                                                                               8
workers would find other ways to make a living with or without USAID’s assistance. Officials
said this activity does not affect the production or sale of stoves—the program’s primary activity.
Given the program’s other significant challenges, the focus on market disruptions that are
unlikely to occur is an unnecessary distraction for the staff.

The lack of a certifying organization and an effective marketing strategy could hamper the
program’s success. In addition, limited resources should not be used on a project that does not
help achieve the program’s goal. Barriers to success for past cookstove programs in Haiti
included a lack of quality control for stove production and cultural resistance to new
technologies, and lack of knowledge of the benefits. In the contract’s statement of work,
Chemonics asserted that any successful program must address these issues. Based on this,
the audit recommends the following.

   Recommendation 5. We recommend that USAID/Haiti implement a plan to support the
   Bureau of Mines and Energy in developing the certification lab or securing alternate
   partner(s) to house it.

   Recommendation 6. We recommend that USAID/Haiti determine whether the charcoal
   worker alternative livelihood activity is adding cost-effective value to the program, and
   document the decision to either continue or terminate the activity.

   Recommendation 7. We recommend that USAID/Haiti implement alternative marketing
   strategies aimed at church groups to expand the biomass cookstove market, and
   expand marketing efforts to other urban community groups and document such efforts.

Chemonics Did Not Meet Targets to
Reduce Charcoal Consumption
Under the terms of the contract, Chemonics expected to replace traditional coal stoves with
LPG stoves for at least 10,250 large consumers of charcoal: these users were 9,450 street
vendors in Port-au-Prince and 800 schools, orphanages, and other institutions. Based on further
survey data, the Chemonics work plan established the official target at 9,500 new users of LPG
stoves by end of the program. Additionally, to develop a sustainable LPG industry and promote
LPG as a cooking fuel, the contract required Chemonics to work closely with the Haitian
Government, LPG companies and distributors, and other parties to provide technical expertise
and to help stakeholders agree on LPG regulations, standards, and pricing.  




                                                                                                 9
   To decrease the health and environmental hazards associated with charcoal, a USAID program in Haiti
   encourages schools, orphanages, and street vendors to replace charcoal-fired stoves (left) with stoves
                    fueled by LPG (right). (Photo by RIG/San Salvador, June 18, 2013)

The audit found that Chemonics has made very slow progress toward achieving these goals. As
of March 2013,  midway through the project, Chemonics has converted 337 large users (about
7 percent of its target). Moreover, Chemonics could not get the Haitian Government and LPG
industry stakeholders to agree on regulations. 

These things happened for several reasons.

	 Chemonics planned to identify and provide financing options for vendors, but this plan did
   not work as intended. Although Chemonics was able to sign an agreement with a
   microfinance institution,  the financing options offered were still not affordable to all vendors.
   Some preferred to use their savings to purchase the LPG stoves rather than finance them
   and have to pay interest.  Furthermore, Chemonics did not focus on providing viable
   financing options to schools to convert to LPG stoves.

	 The demand for LPG stoves was much less than Chemonics had predicted mainly because
   LPG stoves cost significantly more than charcoal stoves (about $100 versus $4). Vendors
   were unwilling to make such an investment.

	 Chemonics did not focus on organizing public events to demonstrate the benefits of LPG to
   street vendors and schools. It planned to hold demonstrations at 50 schools and
   orphanages;  however, as of March 2013, the program’s community mobilization team had
   been to only 6 schools.  According to the mission, this happened because the benefits were
   minimal compared with the costs associated to organizing these events; so Chemonics and
   USAID/Haiti decided to rely less on public demonstrations to educate the consumer than
   originally planned.

The LPG market also remained underdeveloped because the Haitian Government did not enact
a law governing LPG regulations, standards, and pricing. Members of the industry did not agree
on fuel distribution methods, its mass commercialization, and other regulatory policies. Some
industry representatives also said the program’s effort to build consensus was hurt by a
perceived conflict of interest: Chemonic’s technical representative owned an LPG distributing
company and supported one LPG distribution method over another.




                                                                                                            10
Because of these regulations were not enacted, Chemonics could not train key government
employees, as described in the work plan.

Reducing charcoal consumption is a critical component for reducing both pollution and
deforestation. To help the program succeed in this effort, we are making the following
recommendations.

      Recommendation 8. We recommend that USAID/Haiti coordinate with Chemonics
      International Inc. to secure more affordable financing options for large consumers of
      charcoal to switch to liquid petroleum gas.

      Recommendation 9. We recommend that USAID/Haiti coordinate with Chemonics
      International Inc. to strengthen the marketing and outreach plan for large consumers of
      charcoal by using the resources and expertise of liquid petroleum gas distributors.

      Recommendation 10. We recommend that USAID/Haiti coordinate with Chemonics
      International Inc. to (1) examine the perceived conflict of interest related to the liquid
      petroleum gas legislation and document conclusions and planned actions, and
      (2) implement a plan to increase collaboration among industry stakeholders through
      more discussions and forums.

      Recommendation 11. We recommend that USAID/Haiti document in writing how it can
      achieve targets for the number of large consumers of charcoal converted to liquid
      petroleum gas or set realistic targets for the remainder of the program.

USAID/Haiti Did Not Follow All
Environmental Procedures
According to ADS 204.3.4, each COR is responsible for making sure that USAID fully complies
with procedures2 to identify and mitigate environmental damage that might result from activities
the Agency funds. The COR is responsible for making sure resources are available to complete
environmental work and preparing the IEE before contractors receive program funds. In
addition, the USAID/Haiti IEE for the program required the COR to:

1. 	 Review and approve, along with the mission environmental officer (MEO), the environmental
     mitigation plan and report (EMPR), a document from the implementer that defines mitigation
     measures for activities that might cause environmental damage.

2. 	 Review the implementer’s annual submission of an environmental mitigation report, which
     contains an updated environmental monitoring and evaluation tracking table, an explanation
     of findings, and recommendations for effective monitoring.

3. 	 Amend the IEE and its mitigation plan to include any new activities identified after the EMPR
     has been approved that would receive a negative determination with conditions.

In January 2013 USAID/Haiti approved an EMPR from Chemonics, which identified 12 out of
25 program activities that might cause environmental damage and defined mitigation measures


2
    The procedures are outlined in 22 Code of Federal Regulations 216.


                                                                                                   11
to be taken. However, Chemonics submitted eight3 more EMPRs to the COR that identified
additional activities—such as land degradation caused by extracting clay to use in making
stoves—that should have been included in the program-wide EMPR. USAID/Haiti did not pass
these additional EMPRs on to the MEO for approval or to determine whether the IEE and overall
EMPR needed amendments. As a result, the additional activities were not reviewed and
approved by the appropriate USAID authorities before they began.

These problems happened for a variety of reasons. First the deputy MEO said only three of the
mission’s ten CORs and agreement officer’s representatives pass EMPRs on regularly since
most program managers are unaware of internal guidance on reporting procedures and required
MEO approvals. Although the mission provides environmental training at least once a year,
USAID employees are not required to attend. USAID/Haiti held its most recent 22 CFR 216
training in April 2012, and 5 of the 35 attendees were USAID/Haiti staff; the rest were other
program partners. The COR confirmed that she has not received environmental compliance
training since her February 2012 designation as activity manager for this program.

Second, Chemonics officials said they did not receive any training on environmental
compliance, and they were confused about how to report risk activities identified and
subsequent mitigation measures taken. Staff assigned to another Chemonics program in Haiti
initially handled the cookstove program environmental tasks, such as devising the EMPR. When
the report was approved in January 2013, the cookstove program staff took over the
environmental responsibilities, but they were unsure of how to utilize the environmental plan and
how to continue to report on environmental compliance.

USAID/Haiti is responsible for the activities implemented by its partners and their compliance
with environmental regulations. Without strict compliance with the regulations, environmental
problems could result, and USAID could potentially face legal action. USAID’s Office of
Inspector General issued three reports between April 2012 and September 2013 identifying
problems with USAID/Haiti’s compliance with its environmental responsibilities.4 To correct the
problems, we are making the following recommendations.

      Recommendation 12. We recommend that USAID/Haiti implement a policy for
      mandatory environmental training for all mission staff involved in program management
      and for reviewing annually that all current staff have attended the training.

      Recommendation 13. We recommend that USAID/Haiti identify and incorporate risk
      activities that were not previously part of the approved environmental mitigation plan and
      report, and amend the initial environmental examination, if necessary, and document all
      actions taken.

      Recommendation 14. We recommend that USAID/Haiti include Chemonics
      International Inc. employees in the next environmental training session and document
      their attendance.

Not All Program Data Met Criteria
According to ADS 202.3.6.1, assessing performance refers to determining “whether the outputs

3
    Two were dated July 2012, and six others were dated between February and March 2013.
4
    Report Numbers 1-521-12-003-P, 1-521-13-001, and 1521-13-008-P.


                                                                                                   12
produced by [a] contractor are timely and of acceptable quality.” ADS 203.3.11.1 states that
data used to make decisions must meet five key criteria validity, and they are listed in USAID’s
TIPs No. 12.

	 Validity - The extent to which a measure actually represents what we intend to measure.

	 Reliability - Data should reflect stable, consistent data collection processes and analysis
   methods over time.

	 Precision - Precise data have a sufficient level of detail to present a fair picture of
   performance and to enable management to make decisions.

	 Integrity - Focuses on whether there is improper manipulation of data.

	 Timeliness - Data should be available and up to date enough to meet management needs.

However, some data used to demonstrate progress toward achieving the program goal did not
meet those standards.

Indicator Methodology Did Not Measure the Number of Beneficiaries Accurately. One key
program indicator is Number of beneficiaries with improved energy services due to USG (U.S.
Government) assistance. According to the program’s PMP, this indicator reports on the number
of people who benefit from improved cookstoves and access to gas, including members of
households, businesses, schools, orphanages, and others. Chemonics also proposed to
develop a detailed methodology for estimating the number of beneficiaries for households and
for other users with higher consumption rates, like schools, orphanages, and street vendors.

It did not do this, however. Instead Chemonics reported only the number of improved
cookstoves sold in Port-au-Prince. As a result, the number of beneficiaries was never
calculated, and the number of stoves sold was used as a proxy. Furthermore, if a single food
vendor decided to purchase more than one stove, the program counted that vendor as more
than one beneficiary, which reduced the accuracy of the results.

Chemonics planned to verify actual consumer usage through a household survey scheduled for
the end of the year. Nonetheless, as of April 2013, Chemonics reported 14,560 beneficiaries in
fiscal year 2013 compared with 29,300 targeted, which appears to undercount significantly the
actual number of beneficiaries

Program Does Not Measure Market Expansion Accurately. The program’s PMP had
four indicators, shown in Table 1, to track the growth of the improved technology market. All
four relied on sales data reported by various firms.

                   Table 1. Indicators to Track Growth (Unaudited Amounts)
                                                                                  FY 2013
                                                                        FY 2013
  Number                            Indicator                                     Results as
                                                                        Target
                                                                                  of April
           Number of certified improved biomass stoves sold in
      3                                                                  10,000      6,995
           metropolitan Port-au-Prince
    13     Quantity of LPG sold in metro Port-au-Prince (metric tons)    20,000      6,426
    14     Number of commercial LPG stoves sold by manufacturers in      4,300         251



                                                                                               13
              target area

              The increase in sales of household LPG stoves as a result of 

      22                                                                       15,000    3,633
              the program's promotion of LPG

However, Chemonics staff found that despite their monthly monitoring efforts, they could not
rely on the accuracy of the sales data the firms provided. Efforts to train firms to collect accurate
data did not keep up with the addition of new retailers to the sales network, which increased the
risk of inaccurate reporting. Firms used varying methods for data collection; one manufacturer’s
shops averaged 300 sales per month and used receipts to keep track of sales, while another
manufacturer sold to ambulatory salespeople who did not report how many they sold.

As of March 2013, Chemonics provided accounting, cost calculation, and customer service
training to around 20 retailers and manufacturers. Eight of the 17 project partners signed a
memorandum of understanding agreeing to share sales data with the program, and Chemonics
gave retailers cash/receipt books to record their sales. However, the audit found that most of the
retailers were not using them.

Calculation for Reduced Charcoal Consumption Was Not Correct. One of the two overall
program indicators is Amount of charcoal consumption reduced as a result of increased use of
improved cooking technologies due to project assistance. The indicator assumes an average
household uses 2.7 kilograms5 of coal per day and that improved stoves are 30 percent more
efficient, saving 0.68 kilograms of charcoal per day.

However, although Chemonics’ testing confirmed that the savings amount was correct, the
indicator assumes a reduction of 1.5 kilograms of charcoal per day, instead of 0.68, thus
overstating the actual reduction levels that the program could reach. Using this corrected
method, the estimated charcoal savings would be 6,999 metric tons from October 2012 through
March 2013, or about 23 percent less than the 9,082 metric tons the mission reported.

Program Does Not Measure Carbon Dioxide Reduction Accurately. In early 2013 USAID
added an indicator to measure how much greenhouse gas emissions decreased (measured
through the reduction of CO2) as a result of program activities. The program assumes that
saving 1 kilogram of charcoal reduces CO2 emissions by 5.75 kilograms. Because the program’s
reported charcoal reductions are overstated, the reported decrease of 52,280 metric tons of CO2
also is incorrect. The program actually decreased the amount by 40,242 metric tons as of April
2013 and met 23 percent of the target.

Targets for LPG Consumption Did Not Correlate With Charcoal Consumption Reduction.
A project indicator tracks Amount of charcoal consumption reduced as a result of increased use
of improved cooking technologies due to project assistance. Targets for charcoal reduction were
based largely on the expectation that 4,950 large users would switch to LPG each year.
Logically, this would imply that LPG consumption would increase and charcoal consumption
would show corresponding reductions. However, targets for the program’s third year show
sustained reductions in charcoal use, but anticipated a lower demand for LPG (10,000 versus
20,000 metric tons).




5
    Haiti: Strategy to Alleviate the Pressure of Fuel Demand on National Woodfuel Resources, World
    Bank’s Energy Sector Management Assistance Program Technical Paper 112/07, 2007.


                                                                                                  14
          Table 2. Yearly Targets for Reduced Charcoal Consumption and LPG Sales
                                      (Unaudited Amounts)
      Indicator and Number              2012               2013                      2014
2. Number of metric tons of charcoal
                                        3,640             60,105                    60,105
consumption
13. Metric tons of LPG sold               0               20,000                    10,000

When consulted, Chemonics staff agreed that targets for No. 13 did not properly reflect program
efforts to increase the use of LPG. This should be adjusted in the PMP targets.

These errors occurred because Chemonics and USAID/Haiti employees did not carefully
monitor how the data were collected and submitted. Although the COR reviewed monthly and
quarterly reports and asked for clarification on reported data, site visits to program partners and
beneficiaries for data verification were not conducted. Instead, most of the COR’s visits to
Chemonics were for planning purposes and to promote the program at its start.

In addition, while the PMP was updated at least three times to show many program monitoring
changes, not all issues were addressed due to oversight including indicator definitions, data
limitations, formulas, or assumptions used in setting targets. For example, program staff agreed
that the PMP’s expected results were not adjusted after the program started, and indicator
results reported to USAID were calculated from partial data.

USAID relies on performance indicator results to determine whether the Agency is on track to
achieve program goals. Without valid, reliable data, USAID cannot make informed decisions
about program progress and identify needed improvements. Therefore, this audit makes the
following recommendation.

    Recommendation 15. We recommend that USAID/Haiti, in collaboration with
    Chemonics International Inc., (1) update the program’s performance management plan
    to include needed revisions to the indicator descriptions, collection method, and targets,
    and (2) implement it to address the indicators’ data limitations for evaluating the
    program’s impact.




                                                                                                 15
EVALUATION OF MANAGEMENT
COMMENTS
In its response to the draft report, USAID/Haiti agreed with all recommendations. Based on our
evaluation of management comments, we acknowledge that the mission made a management
decision on all recommendations and has taken final action on Recommendations 3 and 4. Our
detailed evaluation of the comments follows.

Recommendation 1. In August 2013 USAID/Haiti paid a short-term consultant to review the
state of the carbon market. Based on his recommendations, mission officials said they will
modify language in the contract to reflect realistic achievements for the carbon finance program.
The revised language will be completed by the end of February 2014. Based on the mission’s
response and planned actions, we acknowledge that a management decision has been reached
on this recommendation.

Recommendation 2. USAID/Haiti plans to address delays in carbon finance activities by
expanding the validation process. The project activities will be registered with the international
certifying body by July 2014, and a long-term study completed by August 2014. Based on the
mission’s response and planned actions, we acknowledge that a management decision has
been reached on this recommendation.

Recommendation 3. To address this recommendation, USAID/Haiti hired a field study
coordinator in June 2013. This person supervises data collection and assists with coordination
between partners. Based on mission comments and the supporting documentation provided, we
acknowledge that the mission made a management decision, and final action has been taken
on Recommendation 3.

Recommendation 4. The field study coordinator established a data collection methodology and
verified data collections. This coordinator also supervised the data collected and used in the
national baseline report presented in November 2013. Based on mission comments and the
supporting documentation provided, we acknowledge that the mission made a management
decision, and final action has been taken on Recommendation 4.

Recommendation 5. In December 2013 USAID/Haiti signed a memorandum of understanding
with Haitian officials to establish the laboratory within the State University of Haiti and to have
the university’s science department conduct the testing. BME would approve and certify results.
The laboratory is expected to be moved by March 2014. Based on the mission’s response and
planned actions, we acknowledge that a management decision has been reached on this
recommendation.

Recommendation 6. USAID/Haiti and Chemonics determined that the activity is not cost-
effective, and they plan to modify the contract by the end of February 2014 to remove the
alternative livelihood requirement. Based on the mission’s response and planned actions, we
acknowledge that a management decision has been reached on this recommendation.

Recommendation 7. USAID/Haiti agreed to implement additional activities to support the
expansion of retailers’ marketing strategies to target urban community groups, including women



                                                                                                16
and church groups. These activities will be completed by September 2014. Based on the
mission’s response and planned actions, we acknowledge that a management decision has
been reached on this recommendation.

Recommendation 8. USAID/Haiti officials said that, per the project’s approved FY 2014 work
plan, Chemonics will work with microfinance institutions to test loan products that target large
users of charcoal. Chemonics also will provide technical assistance to the institutions to support
the use of more extensive loan products to retailers and other consumers. These activities will
be completed by September 2014. Based on the mission’s response and planned actions, we
acknowledge that a management decision has been reached on this recommendation.

Recommendation 9. USAID/Haiti stated that Chemonics’ fiscal year 2014 work plan
incorporates activities that use LPG distributors’ expertise. The mission further stated that
Chemonics is working with the three largest LPG distributors to develop a memorandum of
understanding in which they agree to collaborate in marketing LPG stoves to large charcoal
users; the agreement is expected to be finalized in May 2014. Based on the mission’s response
and planned actions, we acknowledge that a management decision has been reached on this
recommendation.

Recommendation 10. As of July 2013, USAID/Haiti had addressed the conflict of interest by
having the chief of party represent the program at stakeholder meetings, with the technical lead
focusing on management areas that require his technical expertise. Also the chief of party sent
letters to two organizations to address the matter of impartiality.
By end of May 2014, the program expects to increase collaboration among industry
stakeholders by having the memorandum of understanding described in Recommendation 9.
Based on the mission’s response and planned actions, we acknowledge that a management
decision has been reached on this recommendation.

Recommendation 11. USAID/Haiti will modify the contract with Chemonics in February 2014 to
adjust the target for street food vendors, increase household targets, expand the geographic
scope, and focus conversion efforts on private schools and orphanages. USAID/Haiti also plans
to set more realistic targets for converting large users of charcoal to LPG and develop a
monitoring plan to be sure these activities have close oversight. The revisions will be finalized
by March 2014. Based on the mission’s response and planned actions, we acknowledge that a
management decision has been reached on this recommendation.

Recommendation 12. USAID/Haiti will draft a mission order that addresses environmental
compliance procedures, roles, and responsibilities. Furthermore, USAID/Haiti officials said they
would determine how much training CORs need and would develop an environmental overview
course as part of the mission’s training curriculum. The mission will use the Federal Managers
Financial Integrity Act annual review process to test the adequacy of the training. These
proposed actions will be completed by October 2014. Based on the mission’s response and
planned actions, we acknowledge that a management decision has been reached on this
recommendation.

Recommendation 13. USAID/Haiti undertook a review of risk activities under the approved
Pillar A Environmental Mitigation and Monitoring Plan & Report (EMPR) and activities under the
Improved Cooking Project. The review to date has not identified any activities that were not
previously part of the approved EMPR. These quarterly reviews of mitigation reports will
continue through the life of the project, with a proposed completion date of January 31, 2015.
Based on the mission’s response and planned actions, we acknowledge that a management


                                                                                               17
decision has been reached on this recommendation.

Recommendation 14. USAID/Haiti scheduled environmental training for late February 2014
and will document Chemonics’ attendance. Based on the mission’s response and planned
actions, we acknowledge that a management decision has been reached on this
recommendation.

Recommendation 15. USAID/Haiti worked in collaboration with Chemonics to revise the PMP,
which will be finalized by the end of February 2014. USAID/Haiti also has hired a new
monitoring and evaluation specialist who will help the COR monitor this program regularly.
Based on the mission’s response and planned actions, we acknowledge that a management
decision has been reached on this recommendation.

 




                                                                                       18
                                                                                        Appendix II



SCOPE AND METHODOLOGY
Scope
We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions in accordance with our
audit objective. We believe that the evidence obtained provides that reasonable basis.

The purpose of this audit was to determine whether USAID/Haiti’s Improved Cooking
Technology Program was achieving its main goal of establishing the near- and long-term
foundations for a sustainable market of clean, efficient, and affordable cooking solutions in Haiti.

On January 31, 2012, USAID/Haiti awarded a 3-year, $7.2 million cost-plus-fixed-fee contract to
implement the program. The award was later increased to $8.2 million in April 2013. The
program included five objectives; the fifth was incorporated in April 2013. As of April 30, 2013,
cumulative obligations and disbursements totaled $8.2 million and $2.7 million, respectively.
This represents the amount tested.

The audit covered activities from the program’s inception on January 30, 2012, through June 30,
2013. The team conducted fieldwork from June 6, 2013, through August 6, 2013, in the Port-au-
Prince metropolitan area

In planning and performing the audit, the audit team assessed significant internal controls used
by USAID/Haiti and the Office of Infrastructure, Engineering, and Energy to monitor program
activities. These controls were the contractor’s quarterly progress reports, financial reports,
contractor-submitted PMP data, and program work plans. The team also examined USAID
operating reports, environmental compliance due diligence, award and modification
requirements, subawards, the COR’s designation letter, portfolio reviews, and other reports to
identify any risk or weaknesses in program management. Finally, the team reviewed
USAID/Haiti’s Federal Manager’s Financial Integrity Act report for fiscal year 2012 and past
audit reports to identify issues encountered by similar audits.

The audit team also reviewed Chemonics’ management controls over its subcontractors,
including Mercy Corps and C-Quest Capital. Controls reviewed included data validation,
reporting systems, and monitoring and evaluation methods.

Methodology
To answer the audit objective, we reviewed program documentation, including contract and
progress reports, and corroborated information with interviews and site visits. We evaluated the
mission’s management and oversight of the program, the performance of implementing
partners, and the effectiveness of activities. We met with USAID’s employees responsible for
program management, like the COR, program officer, the mission’s monitoring and evaluations
specialist, and the deputy mission environmental officer. In addition, we met with Chemonics
employees such as the chief-of-party, the technical leads for each program component, the
monitoring and evaluation specialist, and the finance manager.




                                                                                                 19
                                                                                        Appendix II


The audit team reviewed a sample of 82 judgmentally selected activities out of 152 based on
their relevance to the audit objective. To assess whether the program was achieving its goals,
we selected subcontractors to interview regarding activities they were responsible for, and we
visited program partners and beneficiaries, including five manufacturers, one distributor, two
retailers, one LPG distributor, two LPG distribution stations, as well as six users of charcoal and
LPG stoves.

All site visits were within Port-au-Prince—the area delimited by the program’s scope. The final
itinerary for audit field visits was refined through discussions with Chemonics and took into
consideration travel time between locations, availability of program participants, and an activity’s
reported progress compared with expected results and relative significance to the overall goal.
Field visits were used to validate the use of funds and to document aspects of monitoring,
reporting, and compliance with environmental and gender requirements.

To validate performance data, we judgmentally selected a sample of performance indicators for
testing based on relevance to the program’s main goals. For these selected indicators, we
examined data collection methodologies and compared annual progress reports with supporting
documentation at Chemonics’ and partners’ offices. Since these samples were selected
judgmentally, the results cannot be projected to the entire population. We believe our
substantive testing was sufficient to support the audit’s findings.




                                                                                                 20
                                                                                     Appendix II



MANAGEMENT COMMENTS 




TO:            Jon Chasson, Regional Inspector General

FROM:          Mark A. White, Acting Mission Director/s/

DATE:          January 31, 2014

SUBJECT:       Mission response to the draft report of USAID/Haiti’s Audit of Improved
               Cooking Technology Program (RIG draft Report No. 1-521-14-00X-P).


This memorandum represents USAID/Haiti’s actions taken to address and reach the management
decisions for the recommendations reported in the draft Audit of USAID/Haiti’s Improved
Cooking Technology Program / RIG Report No. 1-521-14-00X-P. The mission agrees with all
recommendations and provides below the responses to these recommendations.

       Recommendation No. 1: We recommend that USAID/Haiti review time frames for
       carbon finance implementation to determine whether expected results can be achieved
       during the program and modify the contract to reflect realistic achievements or document
       the reasons for not modifying the contract.

Mission Response

USAID/Haiti agrees with the recommendation and has addressed it in the following manner: In
August 2013, the Mission funded a short term expert in household renewable energy and energy
efficiency projects in the carbon market. The consultant reviewed the state of the carbon market
as well as realistic timelines for the project achieving expected results. Based on the
recommendations of the consultant’s September 2013 report, “Mid-Term Evaluation of the State
of Carbon Finance for ICS Program in Haiti,” USAID/Haiti will modify the contract to ensure
that more realistic timelines for expected results are reflected.

Plan of Action and Timeline

USAID/Haiti will modify language in the contract to reflect realistic achievements for the carbon
finance program (component 4) by end of February 2014.




                                                                                              21
                                                                                     Appendix II


       Recommendation No. 2: We recommend that USAID/Haiti implement a plan to resolve
       delays in activities that must be completed before carbon finance validation and
       certification can occur.

Mission Response

The Mission agrees with recommendation 2. The September 2013 report, “Mid-Term Evaluation
of the State of Carbon Finance for ICS Program in Haiti,” establishes the plan to resolve delays
in activities in order for the carbon finance project validation and certification to occur. The
process revolves around the certification of the Project of Activity (POA) for Haiti.

Plan of Action and Timeline

The Mission wishes to expand on status of ongoing activities which support the POA validation
process. These include the following:

1.	 The Longitudinal Report (year-long study) to be completed by the end of August 2014;
2.	 National Baseline Report completed in November 2013;
3.	 Letter of Approval from the Government of Haiti: the Mission to follow up on status of the
    expected letter before the end of March 2014;
4.	 Letter of Non-Diversion of ODA Funds: the Mission to send Chemonics the letter before the
    end of March 2014; and
5.	 The Project of Activity expected to be registered by July 2014.

       Recommendation No. 3: We recommend that USAID/Haiti coordinate with Chemonics
       to (1) improve communication, coordination and partnership among contractors,
       subcontractors, and partners in the field, or (2) replace a current subimplementer [sic]
       with one that has a greater presence in Haiti and expertise in working there.

Mission Response

This recommendation has been addressed. Based on lessons learned in the first phase of the
National Baseline Report, communication and coordination was resolved in the following
manner: Chemonics hired a field study coordinator in June 2013 to supervise data collection of
the project’s new field partner Papyrus for the second phase of surveys. The field study
coordinator provided real time coordination between the partner responsible for the carbon credit
activities, C_Quest Capital (CQC), and Papyrus. The new field study coordinator is also
responsible for Papyrus’ implementation of CQC’s communicated data collection requirements.
This management structure has proven effective and has resulted in the timely completion of the
National Baseline Report and the accelerated rate of progress of the Longitudinal Study.

Plan of Action and Timeline

This action was taken as of June of 2013.

Recommendation No. 4: We recommend that USAID/Haiti require Chemonics to prepare a data



                                                                                              22
                                                                                          Appendix II


quality plan for the baseline report, and review and approve it.

Mission Response

This recommendation has been addressed. In June 2013, Chemonics hired a field study
coordinator to prepare and implement a data quality plan whose scope of work consisted of
establishing a data collection methodology and verifying the data collections. The field study
coordinator supervised the data collection of its new field partner Papyrus and ensured the
study’s data quality. After quality assurance, the data was then submitted to CQC for analysis.

Plan of Action and Timeline

This Action was taken as of June of 2013, and the National Baseline Report was finalized in
November 2013.

       Recommendation No. 5: We recommend that USAID/Haiti implement a plan to support
       the Bureau of Mines and Energy in developing the certification lab or securing alternate
       partner(s) to house it.

Mission Response

The Mission has fully addressed this recommendation. The lab will be housed at State
University of Haiti (Université d’Etat d’Haiti or UEH). Pursuant to a letter sent in September
2013 to the Director for Bureau of Mines and Energy (BME), on December 17, 2013 the project
signed a memorandum of understanding to this effect with the Minister of Public Works, the
Director of the BME, the Rector of the State University, and the Directors of UEH’s Science
Department. The memorandum of understanding establishes new stove testing protocols for the
project-funded equipment to be installed at the university. Testing will be conducted by the
UEH, and then the results will be officially approved and certified by the BME.

Plan of Action and Timeline

This action was taken as of December 2013.

       Recommendation No. 6: We recommend that USAID/Haiti determine whether the
       charcoal worker alternative livelihood activity is adding cost-effective value to the
       program, and document the decision to either continue or terminate the activity.

Mission Response

The Mission in collaboration with Chemonics carried out an analysis and review of the “worker
alternative livelihood activity” and determined that the activity is not cost effective. As a result,
that activity will be terminated, and those resources to be directed to other priority areas.

Plan of Action and Timeline




                                                                                                   23
                                                                                       Appendix II


By end of February 2014, USAID/Haiti will modify the language in Chemonics’ contract to
remove the alternative livelihoods activity requirement (as well remove this expected result from
the Performance Management Plan (PMP)).

The Mission wishes to clarify one finding related to the “Alternate Livelihoods Activities.” One
of the references in the auditor’s report, “ Furthermore, Chemonics staff expected that as
charcoal demand decreases, the charcoal workers will find other ways to make a living with or
without USAID’s assistance” (p. 8) reflects Chemonics’ staff opinion and does not represent a
factual or formal USAID position on the matter.

       Recommendation No. 7: We recommend that USAID/Haiti implement alternative
       marketing strategies aimed at church groups to expand the biomass cookstove market,
       and expand marketing efforts to other urban community groups and document such
       efforts.

Mission Response

The Mission agrees with this recommendation. USAID/Haiti is addressing this recommendation
through Component 5 of the project, “Capacity of enterprises along the biomass cookstove
supply chain to profitably scale up production and sale of ICS strengthened” as of April 2013.
This component will support the creation or expansion of retailers’ marketing strategies to target
urban community groups to include women and churches. It should also be noted that other
marketing project activities resulted in 12,777 improved charcoal stoves sold, exceeding its
target for FY 2013.

Plan of Action and Timeline

This action was taken as of April 2013.

       Recommendation No. 8: We recommend that USAID/Haiti coordinate with Chemonics
       to secure more affordable financing options for large consumers of charcoal to switch to
       liquid petroleum gas.

Mission Response

Mission agrees with the recommendation and had begun addressing the concern prior to the
audit. In March 2013, Chemonics hired a Loan Product Development Consultant to develop
loans and mobile money options that will increase access to credit for manufacturers, retailers
and consumers (small and large), as reported in various 2013 monthly reports. This Loan
Development Consultant developed a number of loan products. One such new loan product,
Kredi Eneji Vèt, developed in November 2013, allows for any person who can show proof of
work to have access to this micro loan. The micro-loans range from 1,000 Haitian gourdes
(HTG) to 100,000 HTG and are for green energy products, such as solar lamps, improved
cookstoves, and LPG all of which are distributed by the Improved Cookstove Technology
Program partners.
Based on positive consumer interest during the pilot phase, in FY 2014 Kredi Eneji Vèt will be



                                                                                                  24
                                                                                        Appendix II


open to street food vendors for the purchase of LPG stoves. In the approved FY 2014 workplan,
Chemonics will work with micro-finance institutions to pilot loan products developed in the
previous year, targeting large users of charcoals. Chemonics will also provide technical
assistance to other interested micro-finance institutions to support the roll-out of more extensive
loan product programs to retailers and other consumers.

Plan of Action and Timeline

The FY 2014 workplan which describes the plan to pilot the developed loan products will be
finalized by the end of February 2014.

       Recommendation No. 9: We recommend that USAID/Haiti coordinate with Chemonics
       to strengthen the marketing and outreach plan for large consumers of charcoal by
       leveraging the resources and expertise of liquid petroleum gas distributors.

Mission Response

Mission agrees with the recommendation. USAID/Haiti has ensured that Chemonics’s FY 2014
workplan clearly incorporates activities that leverage the expertise of LPG distributors.
Chemonics is currently collaborating with the three largest LPG distributors to establish a
memorandum of understanding (MOU) to ensure collaboration on expanded marketing for use of
LPG stoves and on large charcoal user conversions.

Plan of Action and Timeline

The MOU will be finalized and negotiated by end of May 2014.

Comment on Audit Findings

The Mission wishes to correct one of the findings related to the conversion of large users. The
audit report states, “Chemonics did not focus on organizing public events to demonstrate the
benefits of LPG to street vendors and schools. […] According to the mission, the implementer
did not have more public demonstration activities because the benefits were minimal […]” (p.
10). As of the end of FY2013, Chemonics had organized 91 public demonstrations, six of which
were in schools. Chemonics saw a spike in LPG stove orders during public demonstrations. A
total of 442 commercial and 203 household LPG stoves were ordered during demonstrations.
Public demonstrations have proven to be one of the successful methods for reaching large
charcoal users. The mission had stated that Chemonics’ demonstrations to the public schools
were less beneficial because they relied on the Ministry of Education to allocate a budget to
support these conversions. Private schools require financing mechanisms to purchase or are
already incorporated into the State’s free feeding program.

       Recommendation No. 10: We recommend that USAID/Haiti coordinate with Chemonics
       to (1) examine the perceived conflict of interest related to the liquid petroleum gas
       legislation and document conclusions and planned actions, and (2) implement a plan to
       increase collaboration among industry stakeholders through increased discussion and



                                                                                                 25
                                                                                       Appendix II


       forums.

Mission Response

Mission agrees with recommendation 10. For part (1), as early as July 2013, USAID/Haiti
discussed the matter of the perceived conflict of interest with Chemonics. As of July 2013, the
project’s Chief of Party began representing the project in stakeholder meetings. The technical
lead remains focused on areas requiring his technical expertise. Furthermore, the Chief of Party
also sent letters to two of the industry’s stakeholders, Entrepreneur du Monde (EdM) and to
TOTAL, to address the matter of impartiality. The Mission also has the disclosure and two
recusal letters submitted by Chemonics and dated October 11, 2011; November 7, 2012; and
March 13, 2013, respectively. For part (2) the recommendation to increase collaboration among
industry stakeholders was addressed under the response and activities described in the Mission’s
response to Recommendation 9.

Plan of Action and Timeline

This is an ongoing activity. Initial action was taken as of July 2013.

       Recommendation No. 11: We recommend that USAID/Haiti coordinate with Chemonics
       to document how it can achieve targets in writing for number of large consumers of
       charcoal converted to liquid petroleum gas or set realistic targets for the remainder of the
       program.

Mission Response

USAID/Haiti agrees with the recommendation. Chemonics’ FY 2014 workplan documents how
the implementer plans on achieving its required targets. Chemonics awarded a grant to
SWITCH, S.A. on December 11, 2013, a local commercial enterprise (also called “social impact
business”) to convert 900 street food vendors (SFVs) in the Port-au-Prince area from charcoal to
LPG. They will be funding and engaging in a comprehensive media campaign and aggressive
sales campaigns. Additionally, the mission will set more realistic targets for the remainder of the
program.

Plan of Action and Timeline

USAID/Haiti will modify Chemonics’ contract by the end of February 2014, to (1) reflect a more
accurate number of street food vendors—4,139—in the Port-au-Prince targeted for conversion to
LPG; (2) add a new the target of 42,000 households switching household charcoal users to LPG;
and (3) expand the geographic scope to allow for synergies when appropriate. In addition, under
the FY 2014 workplan, USAID/Haiti has ensured that Chemonics focuses its LPG conversion
efforts on private schools and orphanages.

USAID/Haiti will finalize, by the end of March 2014, a monitoring plan which includes more
frequent progress meetings and more site visits for the year. This will ensure regular and close
oversight of these activities.



                                                                                                   26
                                                                                       Appendix II



       Recommendation No. 12: We recommend that USAID/Haiti implement a policy for
       mandatory environmental training for all mission staff involved in program management
       and for reviewing annually that all current staff have attended the training.

Mission Response

USAID/Haiti agrees that management should ensure that Assistance Officer Representatives and
Contracting Office Representatives (AOR/CORs) have the environmental training necessary to
properly carry out their AOR/COR duties and responsibilities. USAID/Haiti is in the process of
issuing a Mission Order summarizing environmental compliance procedures and roles and
responsibilities. A five-day environmental training course is scheduled for February 2014.

Plan of Action and Timeline

The AOR/COR Supervisor and the Award Officer will identify the level of Environmental
Training that is needed for each AOR/COR. USAID/Haiti will develop an environmental
overview course as part of its training curriculum. Environmental training needs will be assessed
annually in order to offer training sessions accordingly. The adequacy of AOR/COR
environmental training will be tested as part of the annual Federal Managers' Financial Integrity
Act review process under Management Control Review Committee oversight. USAID/Haiti will
issue a Mission Notice to inform staff of these dispositions. These actions will be completed by
October 2014.

       Recommendation No. 13: We recommend that USAID/Haiti identify and incorporate
       risk activities that were not previously part of the approved environmental mitigation plan
       and report, and amend the initial environmental examination, if necessary, and document
       all actions taken.

Mission Response

USAID/Haiti agrees with this recommendation. The Mission has undertaken a review of risk
activities under the approved Pillar A Environmental Mitigation and Monitoring Plan & Report
(EMPR) and activities under the ICT Project. The approved EMPR is an umbrella document
outlining potential categories of risks and appropriate mitigation measures. Pursuant to this
umbrella EMPR, the contractor must submit quarterly environmental mitigation reports that are
specific and detailed as to particular activities under the contract. When those quarterly
environmental mitigation reports are submitted, they are reviewed and must be approved by a
Mission Environmental Officer. Our review to date of activities and quarterly reports under the
ICT project has not identified any activities that were not previously part of the approved EMPR.
Therefore, at this time, the Mission has concluded it is not necessary to amend the IEE or EMPR.
These quarterly reviews of mitigation reports will continue through the life of the project, with a
proposed completion date of January 31, 2015.

The findings the auditor reported concerned a misunderstanding by Chemonics on how to report
mitigation measures taken for specific project activities. In June 2013, Chemonics, the COR and



                                                                                                27
                                                                                      Appendix II


the Deputy Mission Environmental Officer (Deputy MEO) met to discuss the environmental
mitigation plan, and the appropriate format to use for reporting mitigation measures taken. The
Deputy MEO had approved the previously submitted environmental reports, which included all
the necessary information and appropriate mitigation measures. There was no need to correct any
of the previous reports. Chemonics and the COR continue to work closely with Mission’s
Deputy MEO. The Mission has documented its meeting with the implementer and will continue
to conduct regular review of the activities to ensure that the approved EMPR remains accurate
and comprehensive, and that the contractor is complying with the reporting requirements.

       Recommendation No. 14: We recommend that USAID/Haiti include Chemonics
       employees in the next environmental training session and document their attendance.

Mission Response

USAID/Haiti agrees with this recommendation and has already ensured that the next training
session, which is in February 2014, includes Chemonics project employees. Confirmation of
their participation was received by the Mission.

Plan of Action and Timeline
USAID/Haiti will document Chemonics’ completion of the February 2014 environmental
training session by March 2014.

       Recommendation No. 15: We recommend that USAID/Haiti, in collaboration with
       Chemonics, (1) update the program’s performance management plan to include needed
       revisions to the indicator descriptions, collection method, and targets, and (2) implement
       it to address the indicators’ data limitations for evaluating program impact.

Mission Response

USAID/Haiti agrees with recommendation 15. For part (1), USAID/Haiti addressed the
concerns in the PMP in collaboration with Chemonics. An updated PMP has been submitted as
of December 27, 2013 to the COR and is currently under review by the Mission. The updated
PMP addresses the concerns identified in the audit. Furthermore, since the audit, USAID/Haiti
hired a new monitoring and evaluation (M&E) specialist dedicated to the infrastructure team
who will, in collaboration with the COR, lead monitoring and data quality assurance efforts. For
part (2), USAID/Haiti will ensure that the changes to the PMP are applied to the program
activities through regular monitoring.

Plan of Action and Timeline

USAID/Haiti will finalize the updated PMP by the end of February 2014.




                                                                                               28
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
